No. 20-5734

In the Supreme Court of the United States
ALFRED FLORES, Petitioner,

v.
THE STATE OF CALIFORNIA, Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief in
Opposition contains 2,360 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Dated: October 15, 2020
Respectfully submitted,
XAVIER BECERRA
Attorney General of California
/S/ CHRISTINE Y. FRIEDMAN
CHRISTINE Y. FRIEDMAN
Deputy Attorney General
Counsel of Record
Counsel for Respondent
SD2020801170
82562707.docx

